OFFICE OF INSPECTOR GENERAL 



AUDIT OF USAID/PAKISTAN’S
CAPACITY BUILDING FOR THE
FEDERALLY ADMINISTERED
TRIBAL AREAS DEVELOPMENT
PROGRAM
AUDIT REPORT NO. 5-391-10-005-P
JANUARY 28, 2010




MANILA, PHILIPPINES
Office of Inspector General


January 28, 2010


MEMORANDUM

TO:                  USAID/Pakistan Director, Robert Wilson

FROM:                Regional Inspector General/Manila, Bruce N. Boyer /s/

SUBJECT:             Audit of USAID/Pakistan’s Capacity Building Program for the Federally
                     Administered Tribal Areas Development Program (Audit Report No.
                     5-391-10-005-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft audit report and have included the comments in their
entirety in appendix II.

The audit report contains four recommendations to assist the mission in improving various
aspects of the program. On the basis of information provided by the mission in response to the
draft report, we determined that final action has been taken on recommendation 1. In addition,
management decisions have been reached on recommendations 2, 3, and 4. A determination
of final action will be made by the Audit Performance and Compliance Division upon completion
of the planned corrective actions.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov/oig
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 4 


Audit Objective .................................................................................................................. 6 


Audit Findings ................................................................................................................. 7 


Is USAID/Pakistan’s Capacity Building for the Federally Administered Tribal Areas 

(FATA) Development Program achieving its main goals of improving the capacity of
FATA governmental institutions to govern and increasing the capacity of FATA
nongovernmental organizations to promote good governance?

     Change to a New Implementation Strategy
     Has Further Impeded Program Progress .................................................................... 9 


     Capacity Building in Automation 

     Has Had Little Success ............................................................................................ .11 


     Monitoring and Reporting Systems 

     To Manage Development Projects 

     Have Not Been Completed ...................................................................................... .16 


Evaluation of Management Comments ....................................................................... 19 


Appendix I—Scope and Methodology......................................................................... 20 


Appendix II—Management Comments........................................................................ 22 

SUMMARY OF RESULTS 

Pakistan’s Federally Administered Tribal Areas (FATA) are located along the country’s
border with Afghanistan, and for the last three decades, FATA and the surrounding
region have witnessed unprecedented turmoil and instability. The FATA region is the
most economically depressed area of Pakistan, and some 66 percent of the population
in the FATA lives below the national poverty line. The literacy rate of the FATA
population is estimated at only 17 percent.

To improve the development of this region, the Governor of the North-West Frontier
Province established the FATA Secretariat in 2002. The Secretariat is responsible for
overall governance in the tribal areas and for providing services such as health care,
education, and public works. The FATA Development Authority, another FATA
governmental institution, was established in 2006 and is responsible for economic
development. However, neither institution has the capacity to plan and manage public
services and development resources at the level of funding programmed by the
Government of Pakistan and international donors (page 4).

In January 2008, in order to increase the capacity of FATA governmental institutions—
and FATA nongovernmental organizations (NGOs)—USAID/Pakistan awarded a 3-year,
$43.4 million contract to Development Alternatives, Inc. (DAI), to carry out the Capacity
Building for the Federally Administered Tribal Areas Development Program. In May
2009, to cover the cost of security measures, the mission increased the contract amount
by $2.2 million to a total of $45.6 million. As of October 31, 2009, USAID had obligated
approximately $19.7 million and expended approximately $15.5 million (page 5).

The Regional Inspector General/Manila conducted this audit to determine whether the
program is achieving its main goals of improving the capacity of FATA governmental
institutions to govern and increasing the capacity of FATA NGOs to promote good
governance (page 6). Although the program has provided training, taken initial steps to
automate FATA institutions, and completed some media activities, little has yet been
achieved in building the capacity of FATA governmental institutions and NGOs. As of
October 31, 2009, the capacity building program had been in place for 22 months of a
36-month program but had achieved little with regard to the program’s two main goals.
Additional time may be needed, as many planned activities are scheduled to be
completed over 3 years, and most capacity building activities began after October
2008—10 months into the 3-year performance period.

Regarding the first main goal, the program has not yet achieved the goal of improving
the capacity of FATA governmental institutions to govern. The audit found that little
progress had been achieved to build the capacity of the FATA Secretariat and the FATA
Development Authority, in part because the program got off to such a slow start. During
the first year, the contractor focused its resources on working out best approaches to
designing and implementing activities, building up relationships with FATA institutions,
and developing work plans. Also, the deteriorating security situation in Peshawar and
the assassination in November 2008 of the chief of party of another USAID program
delayed progress in the FATA capacity building program. However, some progress has
been made in certain activities. For example, in its second year the program focused on
training in project management, development planning, and financial management. As


                                           1

of September 30, 2009, 74 training events had been completed for 1,224 FATA
governmental institution staff members (page 7).

Regarding the second main goal, the program did not increase the capacity of these
NGOs to promote good governance, although some progress was made. For example,
the program had implemented a few activities to address weaknesses of FATA NGOs,
such as providing formal training classes and purchasing office equipment for 42 NGOs
working in FATA. However, the few FATA-based NGOs that exist lack the human and
financial resources to promote good governance effectively. In most instances, FATA
NGOs needed first to strengthen their proposal preparation skills, financial management
practices, and monitoring and evaluation capabilities before they could start to promote
good governance (page 8).

Because of a high-level change of emphasis in U.S. Government strategy toward greater
involvement of Pakistani organizations in implementing assistance programs, the
mission began to rethink its strategy of providing the bulk of its program assistance
through U.S.-based implementers such as DAI. As a result, in June 2009 the mission
refrained from fully funding a DAI incremental funding request of $15.3 million and, 4
months later, approved only $4.7 million in additional funds. In October 2009, the
mission asked DAI to consider preparing a 90-day demobilization plan. However, as of
November 2009, no final decision had been made as to whether the DAI contract would
be terminated or, if terminated, what program implementation mechanisms would
replace the U.S.-based contractor (page 5).

In summary, although little real progress had been made to date to build capacity of
either FATA governmental entities or FATA NGOs, the audit discusses three areas in
which program accomplishments have been delayed and improvements can be made:

•	 The transition to a new implementation strategy has impeded the program’s progress
   (page 9).

•	 Capacity building in automation has had little success, and most of the computer
   hardware purchased for the program has remained boxed up and unused (page 11).

•	 Monitoring and reporting systems for managing development projects—such as a
   geographic information system that enables project information to be represented on
   maps and a database system to document the life cycle of development projects—
   have not been completed, and they may not be completed until June 2010 (page 16).

This report contains four recommendations to address these issues and to help improve
implementation of the program (pages 11, 15, and 18). We recommend that
USAID/Pakistan:

•	 Provide immediate written guidance to the contractor and to the FATA governmental
   institutions to identify contractual arrangements that would be in force to implement
   the Capacity Building for the Federally Administered Tribal Areas Development
   Program as the mission transitions to USAID’s new implementation strategy.

•	 Develop and issue implementation plans, following best practices, to (1) assign 260
   computers (and related equipment) to the FATA governmental institutions and (2)



                                           2

   transfer 140 laptop computers to the North-West Frontier Province and to ensure that
   the computer equipment will be used for intended purposes and that maximum
   benefits will be derived from this equipment.

•	 Take immediate steps to confirm the existence of 72 laptop computers. If the laptop
   computers cannot be produced, the mission should issue a bill of collection to the
   contractor for $1,400 for each missing laptop.

•	 Require the contractor to develop and put into use detailed implementation plans for
   both the geographic information system and the planning commission database under
   development for use by the Federally Administered Tribal Areas Secretariat. The
   plans should identify roles and responsibilities to be carried out by the contractor and
   others and should contain best practices of systems development, such as obtaining
   approval by stakeholders, establishing target dates for completing user manuals,
   training users and administrators, and preparing for the final handover of day-to-day
   operations and maintenance to the Secretariat.

On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final action has been taken on recommendation 1,
and management decisions have been reached on recommendations 2, 3, and 4. The
mission’s written comments on the draft report are included in their entirety, without
attachments, as appendix II to this report (see page 22).




                                            3

BACKGROUND

Pakistan’s Federally Administered Tribal Areas (FATA) are located along the country’s
border with Afghanistan, as shown in the map below. For the past three decades, the
FATA and the surrounding region have witnessed unprecedented turmoil and instability.
The FATA region is the most economically depressed area of Pakistan, and some 66
percent of the population in the FATA lives below the national poverty line. The literacy
rate of the FATA population is estimated at 17 percent. The FATA region is
administered by the Governor of Pakistan’s North-West Frontier Province (NWFP).

              Federally Administered Tribal Areas (FATA) of Pakistan




                  Map is courtesy of the FATA Development Authority.

To improve the development of this region, the NWFP Governor established the FATA
Secretariat in 2002. The Secretariat is responsible for the overall governance of the
tribal areas and for providing services such as health care, education, and public works.
The FATA Development Authority, another governmental institution, was established in
2006 and is responsible for the region’s economic development. Both the FATA
Secretariat and the FATA Development Authority report to the Governor of the NWFP.
However, neither institution has the capacity to plan and manage development
resources at the level of funding programmed by the Government of Pakistan and
international donors.



                                           4

USAID/Pakistan’s Capacity Building for the Federally Administered Tribal Areas
Development Program was designed (1) to improve the capacity of FATA governmental
institutions to govern and manage increased donor resources and (2) to strengthen the
capacity of FATA nongovernmental organizations (NGOs) to promote good governance.
Building the capacity of FATA governmental institutions and NGOs was envisioned as a
long-term effort.

At its headquarters in Peshawar, Pakistan, the FATA Secretariat employs approximately
500 staff members, and the FATA Development Authority employs 100. The FATA
Secretariat has at least 30,000 additional employees, mostly teachers and health care
providers, spread throughout the FATA. To increase the capacity of FATA governmental
institutions, the program planned to provide technical training in development planning,
project management, financial management, information technology, and media
relations. As part of its assistance to FATA NGOs, the program planned to provide
training in many of the same areas and to purchase office equipment such as laptops,
printers, photocopiers, and office furniture.

In January 2008 the mission awarded a 3-year, $43.4 million contract to Development
Alternatives, Inc. (DAI), a U.S.-based contractor, to implement the program. In May
2009, the mission increased the contract amount to $45.6 million to cover increased
security measures, such as employing a security director, procuring two armored
vehicles, hardening facilities, and hiring extra guards. The $2.2 million increase also
covered the costs of relocating contractor expatriate staff from Peshawar to Islamabad,
following the assassination in November 2008 of the chief of party of another USAID
program operating in Peshawar.

However, because of a high-level change of emphasis in U.S. Government strategy
toward greater involvement of Pakistani organizations in implementing assistance
programs, in 2009 the mission began to rethink its strategy of providing the bulk of its
program assistance through U.S.-based implementers. As a result, in June 2009 the
mission refrained from fully funding a DAI incremental funding request of $15.3 million
and in September 2009 approved only $4.7 million in additional funds. In October 2009
the mission asked DAI to consider preparing a 90-day demobilization plan. However, as
of November 2009, no final decision had been made as to whether the DAI contract
would be terminated or, if terminated, what program implementation mechanisms would
replace the U.S.-based contractor.

As of October 31, 2009, USAID had obligated approximately $19.7 million and expended
approximately $15.5 million toward implementing its capacity building program in the
FATA. The contractor estimated a cost of approximately $1 million to close down the
program by January 2010.




                                           5

AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2010 annual audit plan to answer the following question:

•	 Is USAID/Pakistan’s Capacity Building for the Federally Administered Tribal Areas
   Development Program achieving its main goals of improving the capacity of FATA
   governmental institutions to govern and increasing the capacity of FATA
   nongovernmental organizations to promote good governance?

Appendix I contains a discussion of the audit’s scope and methodology.




                                          6

AUDIT FINDINGS 

The main goals of USAID/Pakistan’s Capacity Building for the Federally Administered
Tribal Areas (FATA) Development Program are (1) improving the capacity of FATA
institutions to govern and (2) increasing the capacity of FATA nongovernmental
organizations (NGOs) to promote good governance. Although the program has provided
training, taken initial steps to automate FATA institutions, and completed some media
activities, it has achieved little in building capacity for FATA governmental institutions
and NGOs. As of October 31, 2009, the capacity building program had been in place for
22 months of a 36-month program (61 percent completed), but the program has made
little headway toward achieving its two main goals. Because many planned activities
were scheduled to be completed over 3 years, and most capacity building activities
began 10 months into the 3-year performance period (October 2008), more time is
needed to achieve success.

The capacity building program has not achieved its goal of improving the capacity of
FATA governmental institutions to govern. The audit found that little progress had been
achieved in building the capacity of the FATA Secretariat and the FATA Development
Authority, in part because the program got off to such a slow start. Specifically, in the
first year, the contractor:

•	 Focused resources on working out best approaches to designing and implementing
   activities, building up relationships with FATA institutions, and developing work plans.

•	 Finalized its first-year work plan in May 2008, 5 months after the contract start date.

•	 Produced a radio program that was broadcast in parts of FATA beginning in
   December 2008—5 months past the planned start date in June 2008.

•	 Completed its automation strategy in September 2008, 5 months later than planned.

Further delay was caused by the resignation of the contractor’s chief of party in
September 2008, and the position remained vacant until January 2009. And finally,
because of a deteriorating security situation in Peshawar and the assassination in
November 2008 of the chief of party of another USAID program, USAID mandated that
all expatriate contractors working on USAID programs in Peshawar had to move to the
relative safety of Islamabad.

Even though progress was slow during the program’s first year, key capacity building
activities did make more progress in the second year of implementation. For example, in
the second year the program focused on providing training in project management,
development planning, and financial management. As of September 30, 2009, 74
training events had been completed that benefited 1,224 FATA governmental institution
staff members.

Furthermore, in the second year the program successfully established a strategic
communication unit for the FATA and the North-West Frontier Province (NWFP) to
expand the government’s public outreach campaign.     The communications unit
subcontracted with partners to develop and produce two radio programs and two


                                             7

television documentaries. One radio program, “Voices of the People,” was broadcast
232 times; the other radio program, “Step By Step,” 181 times. The two television
documentaries, “Cries of Anguish” and “Road to Peace,” were developed, screened, and
distributed. In addition, the program established a new FM radio station called Amn
Radio (“Radio Peace”) for an estimated cost of $72,0001 in Mardan, a city in the NWFP
near the FATA. The radio station began broadcasting in October 2009 for 4 hours a day
to deliver messages to people displaced by conflict and to broadcast positive content to
help change the perceptions of listeners in favor of peace.

With regard to the program’s second goal, although the program had implemented a few
activities to address weaknesses of FATA NGOs, the program did not achieve the goal
of increasing the capacity of these NGOs to promote good governance. The few FATA-
based NGOs that exist lack the human and financial resources to promote good
governance effectively. In most instances, FATA NGOs needed first to strengthen their
proposal preparation skills, financial management practices, and monitoring and
evaluation capabilities before they could start to promote good governance.

Program activities for FATA NGOs included interventions to improve the capacity to
manage and utilize funding effectively. To increase such capacity, the program selected
42 FATA NGOs to support. That support included formal training opportunities, placing
FATA NGO staff into 3-month internships with larger, well-established Pakistani NGOs,
and purchasing office equipment such as laptops, printers, photocopiers, and office
furniture. As of October 2009, the program had conducted only 12 formal training
classes (ranging from 2 to 18 days) for 267 staff from 36 FATA NGOs. Class subjects
included organizational development, financial management, proposal writing, and
disaster risk management. Moreover, the program had placed 80 FATA NGO staff
members (achieving only 50 percent of the calendar-year target) into 3-month
internships with larger Pakistani NGOs. Finally, only about $300,000 had been spent
of the $1.9 million anticipated to be spent over the 3-year performance period to help
tribal communities through FATA NGO activities.

The program has not made much progress toward achieving its goal of increasing the
capacity of these organizations to promote good governance. Several difficulties have
caused the delay:

•	 These organizations need continued, long-term support to build their capacity.

•	 The contractor took 9 months to compile a list of FATA NGOs, properly screen and
   vet the organizations, and identify weaknesses needing improvement.

•	 The program commenced capacity building activities for these organizations only in
   November 2008.

•	 The program had approved 15 project activities (primarily internships) to support
   FATA NGO capacity building but had placed the activities on hold because of the
   possible termination of the U.S.-based contractor.



1
  Unaudited estimated costs included radio equipment, furniture, building renovations, air
conditioners, and a generator.


                                            8

To help increase the capacity of FATA NGOs during the final year of the program, the
contractor told the audit team that FATA NGOs needed to be affiliated with larger,
mainstream Pakistani NGOs in order to gain business experience, build financial
resources, and develop their capacity to become full development partners.

In summary, although little real progress has been made to date to build the capacity of
FATA governmental institutions or FATA NGOs, three specific program challenges are
discussed in more detail below, and recommendations are made to address these
challenges:

•	 The transition to a new implementation strategy further impeded the program’s
   progress, and at the time of audit the program’s future direction was unclear.

•	 Capacity building in automation had little success, and most of the computer
   hardware purchased for the program was boxed up and unused.

•	 Two monitoring and reporting systems to manage development projects—a
   geographic information system that enables project information to be represented on
   maps and a database system to document the life cycle of development projects—
   have not been completed, and the capacity of FATA governmental institutions in this
   area has not been increased.


Change to a New Implementation Strategy
Has Further Impeded Program Progress

    Summary. In June 2009, under the auspices of the Federal Acquisition Regulation,2
    the program’s contractor notified the mission that additional funds were required and
    requested $15.3 million in incremental funding. The mission refrained from approving
    the $15.3 million requested, however, and in September 2009 the mission approved
    only $4.7 million in additional funding. The mission’s reason for not approving the
    request for the full incremental funding was a high-level change of emphasis in U.S.
    Government strategy toward greater Pakistani involvement in program
    implementation, instead of implementing programs through U.S.-based contractors.
    At the time of the audit, it was unclear whether the new strategy would result in the
    termination of the U.S.-based contractor or would further reduce the level of
    assistance being provided through that contractor. Also at the time of the audit, the
    mission had asked the contractor to submit a demobilization plan, even though the
    mission had not told the contractor to terminate. Funding delays and shortfalls, plus
    the lack of clear instruction from the mission on the contractor’s status, impeded
    progress in capacity building, and many key program activities were on hold.

The mission’s change to a new implementation strategy further impeded program
progress as early as June 2009, after the mission had refrained from funding the
contractor’s incremental funding request of $15.3 million. On September 30, 2009, the
mission approved only $4.7 million—nearly $11 million short of the amount requested.



2
    See 48 CFR 52.232–22.


                                             9

Federal Acquisition Regulation 52.232-22, “Limitations of Funds,” requires contractors
who have spent 75 percent of obligated funds under the contract to notify the contracting
officer in writing whenever the contractor has reason to believe that the costs it expects
to incur under the contract in the next 60 days will exceed the contract amount. In June
2009, the contractor notified the mission’s contracting office that by July 18, 2009, its
spending would exceed 75 percent of obligated funds.          The mission approved the
incremental funding of $4.7 million on September 30, 2009, and the contractor notified
the mission in October 2009 that it planned to spend all of the remaining obligated funds
by January 2010.

After the contractor’s funding request in June 2009, only two emails from the mission
provided written guidance to the contractor on whether the contract would continue
under the new implementation strategy. In the first email, on October 1, 2009, the
mission’s contracting office asked the contractor to consider preparing a 90-day
demobilization plan. In the second, nearly 3 weeks later on October 19, the mission’s
contracting office instructed the contractor to submit a demobilization plan by
October 30, 2009. However, according to contract office email, the preparation and
submission of a demobilization plan did not necessarily mean that the contract would be
terminated. Moreover, the contractor was advised to continue scheduled program
implementation and to focus on producing results as specified in the approved work
plan.

The mission refrained from approving the incremental funding request of $15.3 million
because of a high-level change of emphasis in U.S. Government strategy toward greater
Pakistani involvement in program implementation and increased partnerships with
Pakistani organizations—in lieu of implementation by U.S.-based implementers. In
addition, the recently passed Enhanced Partnership with Pakistan Act of 20093 has
encouraged the use of Pakistani firms and local NGOs in implementing assistance. As a
result, the new strategy will probably expand significantly the level of assistance passing
directly to the Government of Pakistan and through Pakistani implementing partners and
may well rely less on existing U.S.-based contractors, such as the one implementing the
FATA capacity building program.

The progress of the FATA capacity building program has been further hindered by the
funding delays and shortfalls, which started as early as June 2009, and the lack of clear
instructions from the mission as to whether the U.S.-based contract would remain in
place. Furthermore, at the time of the audit, the contractor had been scheduled to begin
demobilization actions on November 15, 2009. As a result, the contractor and the FATA
governmental institutions were uncertain of the program’s future. A senior FATA
Secretariat official told the audit team that the program had been practically at a
standstill since September 2009 and that little action was expected until USAID gave the
contractor and the FATA Secretariat clear instructions on how to proceed. The official
also commented that they had received no word from USAID on the continuation of the
contractor’s assistance, and the Secretariat official insisted that USAID inform the
contractor and the FATA Secretariat as to when contractor changes might occur.

In addition, many other program activities remained on hold, awaiting clear written
guidance from USAID. The FATA Secretariat suspended automation enhancements
because, without the contractor, they did not have the capacity to sustain the information

3
    Public Law 111–73 (October 15, 2009).


                                            10 

technology investment provided by the program. Specifically, the Secretariat lacked the
funds and the technical specialists to manage the automation infrastructure because
they had assumed that the contractor would be assisting them through December 2010.

According to the contractor, other key program activities have also been suspended or
delayed. These activities include two monitoring and reporting systems to manage
development projects; training for NGOs; development of additional broadcast material
for the program-sponsored radio station; and procurement and distribution of 200,000
portable radios to communities in the NWFP and FATA.

Since many key activities have been stalled until the mission provides clear written
guidance, USAID/Pakistan needs to take immediate corrective action and issue specific
guidance to the contractor and FATA governmental institutions on alternative
implementation arrangements that may be put in place under the new implementation
strategy.

       Recommendation 1. We recommend that USAID/Pakistan provide
       immediate written guidance to the contractor and to the Federally
       Administered Tribal Areas governmental institutions to identify contractual
       arrangements that would be in force to implement the Capacity Building
       for the Federally Administered Tribal Areas Development Program as the
       mission transitions to USAID’s new implementation strategy.


Capacity Building in Automation
Has Had Little Success

 Summary. The contractor’s work plan for 2009 identified six deliverables to be
 completed in calendar year 2009 for capacity building in automation. As of November
 2009, the contractor had completed only two of the six deliverables that were meant to
 increase the economies and efficiencies of FATA governmental institutions. The
 deliverables were not completed because the program did not use key best practices
 in its automation strategy. The strategy did not set realistic business goals, manage
 risk through a risk mitigation plan, or execute deliverables as planned. Because the
 contractor did not achieve all six deliverables, the FATA governmental institutions
 have experienced little success in putting to use the $1.5 million in automation
 enhancements procured for the program. Notably, at the time of the audit, 340 of 400
 computers procured for the FATA governmental institutions remained boxed up and
 unused.

The contractor’s work plan identified six deliverables to be completed in calendar year
2009 for capacity building in automation. As of November 2009, the contractor had
completed only two of the six deliverables that were meant to increase the economies
and efficiencies of the FATA Secretariat and the FATA Development Authority. The
audit concluded that the contractor would not achieve the four remaining deliverables by
the end of 2009—deliverables that included hiring information technology specialists,
assembling network infrastructure, and networking 400 computers.




                                           11 

The contractor achieved two deliverables during calendar year 2009: (1) signed
memorandums of understanding on automation improvements with the FATA Secretariat
and the FATA Development Authority and (2) computer training for at least 300 staff
members of these two institutions. The following substantial deliverables were not
achieved:

•	 The contractor did not hire the planned 32 information technology specialists for the
   two institutions to support the automation infrastructure and provide routine
   maintenance. As of November 2009, only 1 of the 32 specialists had been hired.
   After signing memorandums of understanding in March 2009 and May 2009 with the
   two institutions, the program planned to pay the salaries of 4 specialists assigned to
   the FATA Development Authority and 28 specialists assigned to FATA Secretariat
   through December 2010. After this period, FATA institutions were expected to hire
   the same workers initially employed by the capacity building program.

•	 The contractor did not assemble or install network infrastructure equipment by
   September 30, 2009. Most of this equipment, such as servers, firewalls, and
   communication devices, remained in the original boxes at the two institutions.

•	 The contractor did not install or connect 400 laptops and desktop computers to
   networks, along with other equipment. As of October 2009, 340 of the 400
   computers remained unused, stored in their original boxes at the FATA Secretariat
   room (see photos on page 14) and in a contractor’s storage facility, or they were
   used as stand-alone computers, unconnected to a server. Of the 60 computers that
   were in use, 50 were connected to servers at the FATA Development Authority, and
   10 were connected to servers at the FATA Secretariat on a trial basis.

•	 The contractor did not automate any of the planned five modules of core business
   software.   This enterprise-level software included five modules, but none of the
   modules were being used. The modules consisted of software for procurement,
   human resources, and finance operations, internal communications, and planning
   and monitoring.

The contractor did not achieve these four deliverables primarily because the program did
not use key best practices4 in its automation strategy to derive the most benefits from
information technology improvements. For instance, the strategy did not set realistic
automation goals, manage risk through a mitigation plan, or execute deliverables as
planned.




4
  The Control Objectives for Information and Related Technology (COBIT) is a set of best
practices for information technology management created by the Information Systems Audit and
Control Association and the Information Technology Governance Institute in 1996. COBIT
provides managers, auditors, and other users with a set of generally accepted measures,
indicators, processes, and best practices to assist them in maximizing the benefits derived
through the use of information technology and developing appropriate information technology
governance.



                                            12 

•	 Office automation goals were not realistic.         The implementation strategy
   overestimated the automation goals that could be achieved in the time available.
   Most of the key business operations in the two FATA governmental institutions (e.g.,
   finance and budgeting, project management, and human resource management)
   were performed manually.      However, the program strategy “road map” had
   envisioned that most workers would use computers loaded with five modules of core
   business software by the end of the 3-year program and one module by the end of
   calendar year 2009, justifying the program’s plans to purchase 400 computers.
   However, the target of implementing even one module by the end of calendar year
   2009 was unrealistic in the context of the existing information technology
   environment.

•	 Program lacked a risk mitigation plan. The contractor did not prepare an
   information technology risk mitigation plan. The contractor had identified several
   high-risk indicators, but these risks were not reduced by a mitigation plan. For
   example, as specified in the contractor’s work plan, success in automating FATA
   institutions was judged to be at high risk because these institutions used computers
   only on a limited basis and only as stand-alone computers, never connected to a
   central server. Another high-risk indicator identified by the program showed that
   81 percent of the 395 users surveyed had no knowledge of computers and no
   familiarity with the Internet or Microsoft Office.  

•	 Deliverables were not managed successfully. The contractor did not manage
   deliverables successfully.     Specifically, several important deliverables were
   interdependent—if one deliverable was not met as planned, the next deliverable
   probably would not succeed either. For example, one deliverable—hiring 32
   information technology specialists—could have been completed shortly after the
   memorandums of understanding were signed in May 2009. Had these specialists
   been hired, the subsequent deliverable of assembling network infrastructure
   hardware at both FATA institutions might have been accomplished as planned.

Because the four deliverables were not achieved, the FATA governmental institutions
have experienced little success in automation. Specifically, only 60 of the procured
computers were put into use and connected to networks. However, none of the FATA
institutions’ business operations were being automated (e.g., finance and budgeting,
project management, and human resource management); thus, these institutions saw no
improvement in the efficiencies and economies of their core business processes.




                                          13 

    Unassembled      servers    and     other   Laptops, servers, and other communication
    communication equipment, delivered to the   equipment, delivered to the FATA Secretariat
    FATA Development Authority in Peshawar,     in Peshawar, Pakistan, remained unused and
    Pakistan, remained in boxes. (OIG photo     boxed up. (OIG photo taken on October 14,
    taken on October 13, 2009).                 2009)

Since core business operations had not been automated and technical specialists had
not been hired, the FATA Secretariat and the contractor eventually decided to reduce
computer requirements from the initially planned 400 computers5 to 260 computers. As
a result, 140 of 400 computers initially intended to benefit FATA governmental
institutions were instead to be provided to the NWFP in November 2009. The contractor
had signed a memorandum of agreement with the NWFP in October 2009; however, at
the time of the audit, a detailed implementation plan had not been completed to transfer
the computers.

Moreover, FATA governmental institutions had not even begun to improve their capacity
to sustain the automation enhancements. They had not employed technical specialists
to support and maintain computers and the related networks, because the contractor
had agreed to hire these specialists and pay their salaries through December 2010.
Since only 1 of the projected 32 specialists had been hired, little had been accomplished
in improving the capacity of the FATA governmental institutions to manage even the
decreased number of computers that they would ultimately receive. Furthermore, the
FATA Secretariat told the contractor to suspend its networking and cabling activities, as
the Secretariat did not have the capacity to maintain the network.

At the time of the audit, the project was hobbled by limited funding for the contract and
by uncertainty as to level of assistance to be provided in light of the new strategy to rely
less on U.S.-based contractors. Notably, the contractor’s chief of party told the audit
team that they could not fix these automation problems unless USAID provided written
assurance that the contract would continue, as originally stipulated, through December
2010. He explained that they could not hire employees for automation specialist



5
  In September 2008, the contractor assessed the program’s computer requirements to be 50
computers for the FATA Development Authority and 350 computers for the FATA Secretariat.


                                            14 

positions for 12-month contracts and then turn around 1 month later to release these
specialists if USAID terminated the contract.

Immediate corrective action is needed to make use of the $1.5 million spent for these
automation enhancements and to utilize the computers and related peripherals that
remained boxed up in storage. Implementation plans are needed, not only for the 260
computers to be provided to the FATA governmental institutions, but also for the 140
laptop computers to be delivered to the NWFP. Since weaknesses were noted and best
practices were not fully applied in the program’s original automation strategy,
implementation plans for both the FATA and NWFP need to be developed to set realistic
goals, mitigate risk, and successfully manage program deliverables. Such plans would
give USAID more assurance that the computers and related equipment will be used for
intended purposes and that maximum benefits will be derived from this equipment.

       Recommendation 2. We recommend that USAID/Pakistan develop and
       issue implementation plans, following best practices, to (1) assign the 260
       computers (and related equipment) to the Federally Administered Tribal
       Areas governmental institutions and (2) transfer the 140 laptop computers
       to the North-West Frontier Province and ensure that the computer
       equipment will be used for intended purposes and that maximum benefits
       will be derived from this equipment.

After completing the fieldwork, we engaged a local accounting firm to conduct an
inventory of high-value information technology equipment provided by the program. The
firm found inventoried equipment complete except for 72 laptop computers (with an
estimated cost of $101,000, or $1,400 for each laptop) that the FATA Secretariat staff
had recently distributed to its employees. The firm was unable to physically verify the
existence of these laptops because employees had taken them home, and they were
unable to bring them back to work in Peshawar because of a high threat alert during the
physical inventory. Therefore, we are making the following recommendation.

       Recommendation 3.           We recommend that USAID/Pakistan take
       immediate steps to confirm the existence of 72 laptop computers. If the
       laptop computers cannot be produced, the mission should issue a bill of
       collection to the contractor for $1,400 for each missing laptop.




                                           15 

Monitoring and Reporting Systems
To Manage Development Projects
Have Not Been Completed

    Summary. The contract requires the program to build the capacity of the FATA
    Secretariat to conduct effective monitoring and reporting. The program’s work plan for
    calendar year 2009 identified two systems that were to be completed that year to help
    build the FATA Secretariat’s capacity to manage its development projects: (1) a
    geographic information system (GIS) to display in a map format the inputs and
    outcomes of all the ongoing development activities in FATA, and (2) a planning
    commission database system to capture key information relating to project
    development. However, as of November 2009, the contractor had not come close to
    completing either of the two systems, even though the contractor had projected that
    both systems would be completed by June 2010. The contractor had not completed
    the two systems because of its slow startup in the first year of the program and
    subsequent funding delays, among other reasons. With regard to the GIS, however,
    the mission had instructed the contractor to develop that system initially for USAID
    programs rather than to develop a similar system for the FATA Secretariat. As a
    result, at the time of the audit, the GIS system was more useful to USAID than to the
    FATA Secretariat. Also, because the two systems were not completed, the FATA
    Secretariat’s capacity to manage its development projects has not improved.

The contract requires the program to build the governing capacity of the FATA
Secretariat and the FATA Development Authority. To comply with the contract, the
program’s 2009 calendar year work plan identified two systems to be completed within
that year to help build the capacity of the FATA Secretariat to monitor and report on its
portfolio of development projects. The FATA Development Authority was not included in
the work plan because the contractor had concentrated its work on the larger of the two
FATA institutions. The two systems were (1) a geographic information system (GIS) for
the FATA Secretariat, which the contractor planned to complete by December 2009,
and (2) a planning commission database, which the contractor had originally planned to
complete by June 2009. The GIS would display in a map format the inputs and
outcomes of all ongoing development projects in the FATA. The planning commission
database would automate the first of five steps of the GOP planning commission’s6 life
cycle for development projects—the detailed project proposal.

However, as of November 2009, the contractor had not even come close to completing
the two systems, even though the contractor had made some progress on the planning
commission database. The contractor had indicated that both systems would be
completed by the end of June 2010. These systems are important to help build the
FATA Secretariat’s capacity to monitor and evaluate its development activities.

•	 The GIS is designed to capture inputs and outcomes of all developmental activities
   ongoing in FATA and to display these activities on detailed maps. The GIS is also
   intended to be a planning and decision-making tool through which FATA
   governmental officials can track activities according to sectors, implementers,
   progress, status of activities, and geographic location.
6
  The Government of Pakistan’s planning commission is responsible for, among its other
requirements, preparing 5-year plans for economic and social development.


                                             16 

•	 The planning commission database is designed to automate the planning processes
   of the FATA Secretariat, resulting in the timely and accurate preparation, analysis,
   and approval of key planning information such as the planning commission’s
   document PC–1.7 In effect, the PC–1 is a detailed project proposal, which is
   currently completed on stand-alone computers. The proposal provides specific data
   about how funds will be expended for a proposed project. Its preparation is the first
   and most complicated step in the Pakistani regulations for procurement (or
   requisition for approval) of local development activities. The database system being
   developed by the program will set up a system to capture all PC–1 information
   across 15 sectors (e.g., education, health, forestry, agriculture, roads, and bridges).
   The database will enable the FATA Secretariat to assess, within seconds, how funds
   from the Pakistani Government and international donors are being used; the old
   system relies on information collected from hundreds of hardcopy PC–1 documents,
   which may not even be centrally located.

Regarding the progress on the GIS development, the contractor had conducted
preliminary discussions with Secretariat officials and had started assessing system
requirements such as equipment, software, and staffing requirements. With regard to
the planning commission database, the contractor had started with an off-the-shelf
system and reported at the time of the audit that the database was 60 percent complete.
Specifically, the contractor had collected 393 PC–1 documents from the 15 sectors to
develop a sample record database of historical data.

Several factors prevented completion of the two systems:

•	 The mission had instructed the contractor to develop the GIS initially for USAID
   programs, rather than to develop a full-fledged system for the FATA Secretariat as
   originally planned. As a result, a USAID GIS online system was launched at the U.S.
   Consulate in Peshawar in September 2009. The contractor had planned to complete
   the FATA Secretariat GIS by the last quarter of 2009 but had made little progress as
   of November 2009.

•	 The data collection process for the planning commission database took longer than
   expected. The collection process started in first quarter 2009 and continued through
   the third quarter, as most of the remaining forms needed for the database were not
   immediately available. The intent was to enter historical data into the new database
   for monitoring and reporting purposes.

•	 As discussed earlier in this report, the program got off to a slow start in its first year of
   implementation and then suffered funding delays and shortfalls in its second year
   because of USAID/Pakistan’s new implementation strategy.

•	 The contractor did not complete a detailed implementation plan for the GIS and did
   not update its plan for the database system. Such plans should identify roles,
   responsibilities, and procedures for the contractor and the other stakeholders to
   ensure quality, timeliness, and compliance with GOP processes.            Once an
   implementation plan is developed, it needs to be formally approved by users, system
7
  The planning commission’s forms PC–1 through PC–5 document the life cycle of each
development project.


                                              17 

   administrators, and stakeholders to ensure that, overall, the system’s inputs and
   outputs meet the requirements of the FATA Secretariat and, in the case of the
   planning commission database, the Government of Pakistan. Such plans should
   also establish timelines for completing user manuals, developing training courses for
   users and administrators, and handing over day-to-day operations to the Secretariat.

With regard to this final point, we believe an implementation plan is a key element in the
successful implementation of both systems, because such plans help ensure that the
system design is consistent with the needs of stakeholders, applicable GOP regulations,
and best practices for acquiring and developing information technology systems.

Since neither of the two systems for managing development projects has been
completed and little has been done to train Secretariat employees in the use of these
systems, there have been no improvements in building the capacity of the FATA
Secretariat to monitor and report on the development projects for which the Secretariat
is responsible. In short, more than 22 months into the program, the FATA Secretariat
lacks the systems and capacity to manage development projects effectively and
efficiently. Without the GIS and planning commission database system, FATA
institutions will continue to rely upon outdated manual processes of planning, monitoring,
reporting, and decision making.              Therefore, we are making the following
recommendation:

       Recommendation 4. We recommend that USAID/Pakistan require the
       contractor to develop and put into use detailed implementation plans for
       both the geographic information system and the planning commission
       database under development for use by the Federally Administered Tribal
       Areas Secretariat. The plans should identify roles and responsibilities to
       be carried out by the contractor and others and should contain best
       practices of systems development, such as obtaining approval by
       stakeholders, establishing target dates for completing user manuals,
       training users and administrators, and preparing for the final handover of
       day-to-day operations and maintenance to the Secretariat.




                                           18 

EVALUATION OF
MANAGEMENT COMMENTS
On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final action has been taken on one recommendation,
and management decisions have been reached on three recommendations. The status
of each of the four recommendations is shown below.

Final action—recommendation 1. 

Management decision—recommendations 2, 3, and 4. 


For recommendation 2, the mission agreed with the recommendation and prepared
implementation plans for computers assigned to FATA governmental institutions. The
mission anticipates receiving approval and acceptance by the FATA governmental
institutions by March 31, 2010. With regard to laptop computers transferred to the
NWFP, USAID will provide plans to the NWFP government by March 31, 2010.

For recommendation 3, the mission agreed to confirm the existence of 72 laptop
computers. As of December 30, 2009, the mission had verified 55 of the 72 laptops. The
mission anticipates that the majority of the remaining computers will be accounted for by
January 30, 2010. If laptop computers cannot be produced, the mission will issue a bill
of collection for each missing laptop by February 28, 2010.

For recommendation 4, the mission agreed with the recommendation and has completed
the implementation plan for the planning commission database. A draft implementation
plan for the second system has been prepared and is pending approval from the FATA
Secretariat. USAID anticipates that the implementation plan will be completed and
approved by January 30, 2010.

We consider that management decisions have been reached on recommendations 2, 3,
and 4. A determination of final actions will be made by the Audit Performance and
Compliance Division upon completion of the planned corrective actions.

In response to the mission’s management comments, we reworded our opinion to state
more clearly that the first main goal of improving capacity of FATA governmental
institutions has not yet been achieved. In the Summary of Results section of the report,
we added examples of progress that has been made regarding certain activities. Also,
this audit focused on the program’s main goals and not other components that were
outside the program’s main goals.

Also in response to the mission’s management comments, we reworded our opinion to
state more clearly that some progress was made, and we provided examples of activities
that had been implemented to address weaknesses of FATA NGOs.

The mission’s written comments on the draft report are included in their entirety, without
attachments, as appendix II to this report.



                                           19 

                                                                           APPENDIX I

SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila (RIG/Manila) conducted this performance audit
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions, based on our audit
objective. We believe that the evidence obtained provides that reasonable basis. The
purpose of this audit was to determine whether USAID/Pakistan’s Capacity Building for
the Federally Administered Tribal Areas (FATA) Development Program is achieving its
main goals of improving the capacity of FATA governmental institutions to govern and
increasing the capacity of FATA nongovernmental organizations to promote good
governance. There were no prior audits associated with the areas reviewed.

We conducted this audit at USAID/Pakistan from October 6 to 30, 2009, and at the office
of Development Alternatives, Inc. (contractor), in Islamabad, Pakistan. We also
conducted audit fieldwork at USAID/Pakistan’s FATA office located at the U.S.
Consulate in Peshawar. From October 13 to 15, the audit team also conducted field
visits to the Government of Pakistan’s local institutions located in Peshawar, Pakistan, at
the FATA Secretariat and the FATA Development Authority (FATA governmental
institutions).

RIG/Manila entered into a contract with the accounting firm Khalid Majid Rehman of
Islamabad to perform agreed-upon procedures on the internal controls over access to
and use of information technology resources provided by the capacity building program.
The accounting firm conducted an inventory of high-value information technology
equipment by making site visits to the FATA governmental institutions in November
2009. The firm found inventoried equipment complete except that 72 laptops issued to
government officials were not presented to the firm for physical verification.

The audit focused on activities carried out during fiscal years 2008 and 2009, with
updates through November 2009. We obtained an understanding of the management
controls related to the capacity building program. The management controls identified
included the program performance management plan, mission portfolio review,
contracting officer’s technical representative site visits, program progress reports, day-
to-day interactions between mission staff and contractor, and the mission’s annual self-
assessment of management controls as required by the Federal Managers’ Financial
Integrity Act of 1982.

Methodology
To answer the audit objective, we reviewed and analyzed relevant documents at the
mission and the contractor’s office. This documentation included the contract between
USAID/Pakistan and the contractor, annual work plans, automation strategies, progress
reports, and financial reports. The team interviewed officials from USAID/Pakistan, the
contractor, and FATA governmental institutions.


                                            20 

To define results, we assessed the accomplishments of selected activities in response to
the program’s main goals from the contractor’s work plan, which described the specific
activities that both the mission and the implementers had agreed to do, including
timelines showing when individual activities were expected to be completed. We
determined whether the activities in the contractor’s work plans had achieved their
planned results, basing our conclusions on interviews with the mission technical staff,
contract officials, and FATA institution officials as well as on documentation such as
quarterly progress reports. Specifically, we based this determination on a comparison of
actual results with planned results.




                                          21 

                                                                          APPENDIX II 



MANAGEMENT COMMENTS 



MEMORANDUM 


Date:         January 12, 2010

To:           Bruce N. Boyer
              RIG/Manila

From:         Robert J. Wilson /s/
              Mission Director

Subject:      Management Comments
              Audit of USAID/Pakistan’s Capacity Building Program for the Federally
              Administered Tribal Areas Development Program (Report No. 5-391-10-
              00X-P)

Reference:    Bruce N. Boyer’s draft audit report dated December 9, 2009.


In response to the referenced memorandum on the above subject, please find below the
management comments on the four recommendations:

Recommendation No. 1: We recommend that USAID/Pakistan provide immediate
written guidance to the contractor and to the Federally Administered Tribal Areas
governmental institutions to identify what contractual arrangements may be in
force to implement the Capacity Building for the Federally Administered Tribal
Areas Development Program as the mission transitions to USAID’s new
implementation strategy.

Management Comments: The Mission management agrees with this recommendation.
USAID received approval to proceed with DAI, as an international contractor, in early
December and provided guidance to continue with implementation of certain activities
through December 2010. The transmittal between the USAID Contract Officer and DAI
is documented at Annex 1 (letter dated January 08, 2010) which identifies the contractual
arrangements to be in force. Mission accordingly requests closure of this
recommendation.


                                           22 

Recommendation No 2: We recommend that USAID/Pakistan develop and issue
implementation plans following best practices for (1) the 260 computers (and related
equipment) to be assigned to the Federally Administered Tribal Areas governmental
institutions and for (2) the 140 laptop computers to be transferred to the North-
West Frontier Province to ensure that the computer equipment will be used for
intended purposes and that maximum benefits will be derived from this equipment.

Management Comments: The Mission management agrees with this recommendation,
as follows:

With regard to part (1), DAI has already prepared implementation plans for computers
assigned to FATA government agencies. Mission anticipates receiving FATA Secretariat
and FATA Development Authority approval and acceptance of the implementation plan
by March 31, 2010. A copy of this implementation is documented at Annex 2.

With regard to laptop computers transferred to the NWFP (part (2) of the
recommendation), USAID will provide plans to NWFP Government that correct
protocols and procedures are in place for using the laptops for the intended purpose by
March 31, 2010.

Recommendation No 3: We recommend that USAID/Pakistan take immediate steps
to confirm the existence of 72 laptop computers. If laptop computers cannot be
produced, the Mission should issue a bill of collection to the contractor for $1,400
for each laptop unaccounted for.

Management Comments: Mission management agrees with this recommendation. As of
December 30th, USAID/Pakistan staff had photographed and verified 55 of the 72
laptops. The Mission anticipates that the majority of the remaining computers will be
accounted for by January 30, 2010. If laptop computers cannot be produced, the Mission
will issue a bill of collection to the FATA Secretariat and the contractor for $1,400 for
each laptop unaccounted for by February 28, 2010.

Recommendation No 4: We recommend that USAID/Pakistan require the
contractor to develop and put into use detailed implementation plans for both the
geographic information system and the planning commission database under
development for use by the Federally Administered Tribal Areas Secretariat. The
plans should identify roles and responsibilities to be carried out by the contractor
and others and should contain best practices of systems development, such as
obtaining approval by stakeholders, establishing target dates for completing user
manuals, training users and administrators, and preparing for the final handover of
day-to-day operations and maintenance to the Secretariat.

Management Comments: The Mission Management agrees with this recommendation.
DAI has already completed the implementation plan for the Planning Commission Pro-
Forma 1 (PC-1) database (as documented in Annex 2). A draft implementation plan for



                                           23 

the GIS system has been prepared and is pending approval from the FATA Secretariat.
USAID anticipates that the implementation plan will be completed, and have approval
from FATA government agencies, by January 30, 2010. Implementation of both activities
will be completed before the Task Order completion date of December 31, 2010.

Mission requests that RIG consider changing the opinion in the first sentence of the fifth
paragraph of page 1 and throughout the body of the report where it states that,
“Regarding the first main goal, the program had not even begun to improve the capacity
of FATA governmental institutions to govern.” This statement is contradicted on page 7
where it is written, “Even though progress was slow during the program’s first year, key
capacity building activities did make more progress in the second year of
implementation. For example, in the second year the program focused on providing
training in project management, development planning, and financial management. As of
September 30, 2009, 74 training events had been completed that benefited 1,224 FATA
governmental institution staff members.” Furthermore, the report does not discuss other
components of the Capacity Building Program, including those in strategic
communications, economic growth, or civil-military coordination. These components,
which were USAID priorities, have achieved considerable results and provided
significant capacity building support to FATA government agencies and civil society.
Their exclusion from the report creates an impression that the activity is completely
under-performing when, in fact, the RIG team has identified weaknesses in only some of
the activities.

In addition, Mission requests deletion of the first sentence on page 2, “Regarding the
second main goal, the program did not increase the capacity of these NGOs to promote
good governance” as well as the first sentence of the second paragraph on page 8, “…
the Program did not even begin to achieve the goal of increasing the capacity of these
NGOs to promote good governance”. While the program did experience delays, the
Mission believes that significant progress has been made in supporting NGOs. As of
September 2009, as is written in the report, the project had provided training, technical
assistance, and grants to 36 NGOs operating in FATA.


Atch: a/s

CC:    ASIA/SCAA:             Andrew Plitt




                                            24 

U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

           Tel.: 202–712–1150 

           Fax: 202–216–3047 

            www.usaid.gov/oig 

